 Department of Health and Human Services

              OFFICE OF

    INSPECTOR GENERAL





INAPPROPRIATE MEDICARE PAYMENTS

   FOR WORK- RELATED DISABiliTY

            EXPENSES





        MANAGEMENT ADVISORY REPORT




             .. SERVIC'E
            to'"



                           JU   GIBBS BROWN
                           Inspector General


            :tltcl3G           AUGUST 1994
                                 06-89- 00903
PUS~

To determine if the Heath Care Financing Administrtion could use the Social Security
Administrtion s workers ' compensation information to detect inappropriate Medicare
payments for medica expenses incurred becuse of work-related disabilties.


BACKGR()UN
The Social Security Administrtion (SSA) provides disabilty payments to certn persons
with work-related disabilties. After receiving disabilty payments for 24 months , disabled
workers become entitled to Medicae benefits. The Medicae progra , which pays for
varous medica expenses , is administered by the Heath Care Financing Administrtion
(HCFA).

Disabled workers ca additionaly qualfy for workers ' compensation (WC) benefits under
State progras. Under the Social Security Act , the Medicae progra canot pay for
medica expenses covered under a WC agreement.


FIINGS
RCF A could detect more beneficiaries with WC involvement by using SSA records.
HCF A was unaware of the WC involvement of 45 percent of the SSA disabilty
beneficiares in our saple.

There is a strong probabilty of erroneous Medicare payments due to undetected WC
involvement. Estimated savings to Medicae from an SSA-HCFA data exchange rage
from $14 millon to $96 mion.

The effectivenes of an SSAIHCF A exchange of WC inormation could be maximed
by appropriate selection criteria. Diagnosis coes , as well as Workers Computation
coes ca be used to more effectively identify SSA disabilty beneficiares with potential
WC involvement.


C()NCLUSI()N

In light of the findings , we believe that a renewed data exchange between SSA and HCF
would be productive. However , we have not prepared a detaled examination of the
feaibilty, cost of, or alternatives to a data exchange. At this juncture we suggest that
HCF A and SSA furter explore the possibilties. Given the magnitude of potential
savings , a one- yea pilot might be the best way to test out results , quantify costs and
benefits , and reach a final determination on whether to renew the data exchange
                                                                                 , and in
what form.

We are wiling to conduct further analysis if HCFA would consider more OIG work
useful. For now , we are ceasing work and reportng our results because we believe that
our data provides ample grounds for administrtive action.
                                                                                  ..................
                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . .




                            TABLE OF CONTENTS

EXECUT SUMARY

INODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       . . . . . . . . 1



FINDINGS                                                                                       . . . . . . . . . . . . 4



          Undtected Beneficiaries With WC Involvement. 
                      ....................4
         E"oneous Medicare Payments                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4



         Exchange Of Workers Compensaton Informaton

CONCLUSION                                                                                          . . . . . . . . . 6
computer matches under negotiation. In 16 States no match wil        be possible because of
State privacy law , data collection and storage problems , or lack   of State resources.


The advantage that SSA has over HCF A in obtaning WC information is that SSA
collects the information shorty, if not immediately, after the injury has ocurred.
Beuse SSA disabilty beneficiares receive Medicae benefits after 24 months of
disabilty entitlement ,   the HCF A has at least that long before a beneficiar   submits the
first Medicae claim.


Potental Federal Losses



There are approximately 310 00 SSA disabilty beneficiares with known WC
involvement. The average duration of entitlement to disabilty benefits is eight yeas , so it
is very liely         WC beneficiares wil also become entitled to Medicare.
                most of the
fisca yea 1993 ,
               as shown on HCFA reports , approximately $111 milion were saved by
Medicare becuse WC progras covered medica expenses that would otherwise have
been paid by Medicae. Although the number of beneficiares is small , the WC related
costs involved can be substatial.




METHOOOLOGY

Intervews

We interviewed HCFA personnel ,        contrctor personnel ,
                                                       and SSA disabilty beneficiares.
The HCF A and contrctor                              to determine the extent of exchange
                              personnel were interviewed
of WC information between HCF A and SSA and between Medicare contrctors and
agencies. The beneficiares were interviewed to determine the accuracy of the diagnosis
and WC information in SSA records.


Record Reviews


We use thee sets of records to detect discrepancies , and the related potential
overpayments , between the WC information in the SSA and HCFA beneficiar records.
The recrds use were SSA disabilty records , Medicare claims records , and HCF A
primar payer records.

The SSA recrds were taen from a         one percent sample used by SSA to analyze data for
the disabilty population. They included disabilty beneficiares with dates of entitlement
from 1986-1988. From these records we selected beneficiares whose SSA recrds
contaned the offset coes OP , PE , RJ , or WP. These coes are used by SSA to indicate
if a beneficiar s payment is being reduced or offset becuse of recipt of WC or State or
loc public disabilty benefits. Table 1 , which follows , explais the meaings of each
coe use. We selecte 768 beneficiares.
Estimate on the basis of our sample results , savings through a SSA-HCFA exchange
would be $14.425 millon. This    estimate does not include claims paid by carers ,   such as
physician and durable medical equipment bils ,   and is probably too low for this reason.

Estimated on the basis of past recoveries , savings would be over $96 millon. Based on
our saple results , HCFA is aware of 55 percent , or 170 500 , of the 310
beneficiares whom SSA reports as having WC involvement. HCFA avoided $111 milion
in payments in 1993 for those beneficiares. If that rate of recovery applied to the 45
percent , or 139 500 , of beneficiares unknown to HCFA as having WC involvement
HCF A would have saved an additional $96 milion.


Th Effectiveness Of An SSA/HCFA Exchange Of Workers Compensation Information
Could Be Maximized By Appropriate Selection Criteria

Exchanges of information between SSA and HCF A ended about four yeas ago.
Respondents indicate that leads generated through the matches were not productive.

While past exchanges might have produced nonproductive leads , the leads could be made
more productive by using different selection criteria. For example , we used the diagnosis
code , in addition to the WC codes, to select the initial 25 beneficiares for whom the
likelihoo of an overpayment existed. Furtermore , if SSA began to distinguish between
WC and public disabilty benefits in their OP , PE and RI offset codes , HCF A could
furter improve the selection criteria.
                              CONCLUSION


In light of the findings ,
                      we believe that a renewed data exchange between SSA and HCF
would be productive. However , we have not prepared a detaled examination of the
feaibilty, cost of, or alternatives to a data exchange. At this juncture we suggest that
HCFA and SSA furter explore the possibilties. Given the magnitude of potential
savings , a one-yea pilot might be the best way to test out results , quantify costs and
benefits , and reach a final determination on whether to renew the data exchange , and in
what form.

We are willng to conduct furter analysis if HCFA would consider more OIG work
useful. For now , we are cesing work and reportg our results becuse we believe that
our data provides ample grounds for administrtive action.
